CERTIFICATE OF SERVICE
NO. 20-915
Unicolors, Inc.
Petitioner,
v.
H&M Hennes & Mauritz, L.P.
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ASMP
ET AL. AMICI CURIAE AMICUS AT MERITS STAGE IN SUPPORT OF PETITIONER, by mailing three (3) true
and correct copies of the same by Fedex 2-Day, prepaid for delivery to the following addresses.
E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com
Counsel for Unicolors Inc.

Peter K. Stris
777 S. Figueroa Street
Suite 3850
Los Angeles, CA 90017
(213) 995-6800
pstris@stris.com
Counsel for H&M Hennes & Mauritz, L.P., Et al.

Lucas DeDeus

August 10, 2021
SCP Tracking: Maddrey-Four Embarcadero Center-Cover Light Green

